SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
+1 312 853 7000
+1 312 853 7036 FAX
+1 312 853 2936
RHOCHMAN@SIDLEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

CERTIFICATE OF SERVICE
No. 20-1084
Commissioner, Alabama Department of Corrections,
v.

Petitioner

Matthew Reeves,
Respondent.
I, Robert N. Hochman, do hereby certify that, on this 17th day of February,
2021, I caused an electronic copy of the Rule 30.4 Motion for Extension of Time in
the foregoing case to be served by e-mail on the following party:
Edmund Gerard LaCour Jr.
Alabama Office of the Attorney General
501 Washington Avenue
Montgomery, AL 36130
edmund.lacour@alabamaag.gov
/s/ Robert N. Hochman
ROBERT N. H OCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-2936
rhochman@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

